         Office of Inspector General




September 27, 2006

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Western Area (Report Number DR-MA-06-003)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Western Area (Project Number
06XG016DR008). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Western Area. This is one in a series of reports on Delivery and
Retail Operations issued under the Value Proposition Agreement between the Vice
President, Delivery and Retail, and the U.S. Postal Service Office of Inspector General
Delivery and Retail directorate. The information in this report will be included in a
nationwide capping report assessing implementation of Delivery and Retail SOP.

Western Area officials implemented Delivery and Retail SOP in city and rural delivery
and Function 4 (customer service) operations. Implementation included training
supervisors and managers, developing action steps for “vital few” units, and outlining
future plans to complete remaining reviews and certifications by the end of fiscal year
2006. Officials also certified delivery and retail units under Morning SOP (AMSOP) and
Rural Delivery SOP (RDSOP), and used a web-based tool, Customer Service Variance,
to monitor Function 4 budget goals as an alternative to conducting Function 4 reviews.
Based on our review of the city and rural delivery and Function 4 SOP, the Western
area implemented each component of the SOP except for selected aspects of AMSOP
and RDSOP certifications.

Western Area officials had only certified 4 percent of city delivery units under AMSOP.
Area officials stated that AMSOP certification review requirements were challenging
because the process was not conducive to all level 22 and above delivery units.
Management stated that delivery unit organizational structures and staff experiences
prevented units from meeting all of the certification requirements. Area officials
indicated Postal Service Headquarters Delivery and Retail officials could improve the
AMSOP by reassessing whether all requirements are critical to all level 22 and above
delivery units. We recognize area officials’ concerns, and we plan to address these
issues in the capping report to Postal Service Headquarters. Further, area officials had
not monitored the certification of delivery units in RDSOP. Although area officials
monitored RDSOP reviews, area officials did not fully understand the Postal Service
Delivery and Retail Standard Operating Procedures -
 Western Area                                                                   DR-MA-06-003



Delivery and Retail directives to monitor the units’ certification of RDSOP. During our
review, Western Area officials implemented corrective actions to assist their districts in
achieving AMSOP certification and began to monitor RDSOP unit certification.

Additionally, area officials were continuing to address the challenges associated with
the “vital few” performers. Western Area officials indicated that, although they were
implementing the SOP, “vital few” performers were not performing to standards due to
staff with limited experience. We recognize area officials’ concern, and we plan to
address this issue in the capping report to Postal Service Headquarters.

We provided management with a copy of the report and they had no issues with the
findings. We are making no recommendations in this report to Western Area
management.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Kathy Ainsworth
    Steven R. Phelps




                                                      2
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-003
 Western Area



                                              INTRODUCTION

Background                         Each day the U.S. Postal Service receives and delivers over
                                   700 million pieces of mail. The Postal Service delivers mail
                                   to 144 million city and rural addresses across a network of
                                   37,000 post offices and retail outlets. To receive and deliver
                                   the mail, the Postal Service has an annual field budget of
                                   about $60 billion of which roughly 51 percent is used for
                                   delivery and retail operations. Annual salary and benefits in
                                   fiscal year (FY) 2006 for rural and city carriers total about
                                   $22 billion and around $8 billion for Function 4 (customer
                                   service) operations. The Western Area’s FY 2006 budget is
                                   $3.4 billion for city and rural delivery operations1 and
                                   $1.1 billion for Function 4 operations. The area is
                                   responsible for 14 districts and services approximately 7,000
                                   delivery and retail units.2

                                   To ensure efficient use of resources, the Vice President,
                                   Delivery and Retail, issued a letter on September 30, 2005,
                                   stating that all delivery and retail units will officially
                                   implement Standard Operating Procedures (SOP) beginning
                                   in FY 2006 to establish standard practices for managing all
                                   delivery and retail functions. In November 2005, Postal
                                   Service senior management officials requested audit
                                   assistance from the U.S. Postal Service Office of Inspector
                                   General (OIG) to assess implementation of the SOP and
                                   determine how the area is monitoring the units on the “vital
                                   few”3 list. In response to the request, the OIG began its
                                   nationwide review of the Postal Service’s implementation of
                                   SOP in January 2006.

                                   The SOP consists of procedures to manage city and rural
                                   delivery and Function 4 operations. Postal Service officials
                                   must implement the SOP consistently and establish a review
                                   process to validate that the programs are operable. Officials
                                   must also take appropriate responsibility for developing
                                   plans that will assure that SOP are understood and
                                   functional.

1
  This total consists of $2.5 billion for city delivery and $.9 million for rural delivery operations.
2
  Some of these units do not have all three components – city delivery, rural delivery, and retail operations.
Therefore, they do not have budgeted workhours for all three operations.
3
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 operations
and require specific management actions.



                                                           1
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-003
 Western Area



                                   Morning SOP (AMSOP) is an important component of city
                                   delivery SOP. AMSOP standardizes daily city carrier
                                   functions to align actual workhours to base workhours.
                                   The FY 2006 goal is to certify4 all level 225 and above
                                   Delivery Operating Information System (DOIS) sites by
                                   September 30, 2006.

                                   The Rural Delivery SOP (RDSOP) standardizes daily rural
                                   carrier functions to align actual workhours to standard
                                   workhours. The FY 2006 goal is to certify6 75 percent of
                                   units with 10 or more rural routes and those units identified
                                   as “vital few.”

                                   The Function 4 operations goal is to provide a standardized
                                   and comprehensive structure for the development of an
                                   integrated review cycle that continually identifies and
                                   quantifies savings opportunities. In addition, management
                                   should conduct Function 4 Business Reviews7 to identify
                                   units with opportunities for workhour improvements.

                                   A key component of the SOP is the identification of “vital
                                   few” units. These units have the largest opportunity for
                                   improvement in city and rural delivery and Function 4
                                   operations and require specific management actions. Postal
                                   Service Headquarters provides area officials with the “vital
                                   few” list quarterly based on the performance of the previous
                                   quarter. The area monitors the “vital few” units and
                                   develops action plans to correct their performance issues in
                                   city and rural delivery and Function 4 operations.

                                   Postal Service Headquarters provided delivery and retail
                                   standardization training to Area Managers of Delivery
                                   Support Programs on September 8 and 9, 2005. In addition,
4
  District program managers conduct a certification review of a city delivery unit’s operations to determine if
supervisors are matching workhours to workload, time attendance reports, office configuration, and use of authorized
overtime. Units must achieve a score of 95 or greater for certification.
5
  A level 22 post office is a grade level assigned to the postmaster according to the total number of workload service
credits attributed to the facility. The credits are based on a combination of the responsibilities of the postmaster, the
number of employees, the size of the facility, and various operations performed within each post office.
6
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 or greater to achieve certification.
7
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews and an Integrated
Operations Business Plan Committee provides critical support to ensure attainment of major organizational targets.




                                                            2
Delivery and Retail Standard Operating Procedures -                                                DR-MA-06-003
 Western Area


                                 Postal Service Headquarters issued a memorandum on
                                 October 13, 2005, to each area outlining the area’s
                                 responsibility for training managers on the SOP. Each area
                                 was responsible for training districts by October 31, 2005.
                                 The districts were responsible for completing training for all
                                 levels of management by November 15, 2005. Further,
                                 Postal Service Headquarters requested that each area
                                 establish a review process to validate whether the SOP
                                 were adopted to ensure consistent implementation. Finally,
                                 Postal Service Headquarters informed area officials that the
                                 “vital few” list requires their attention and monitoring, which
                                 includes action plans to correct performance issues in city
                                 and rural delivery and Function 4 operations.

Objective, Scope and             Our overall objective was to assess implementation of
Methodology                      Delivery and Retail SOP in the Western Area. Specifically,
                                 we determined whether Western Area officials have
                                 implemented SOP in city and rural delivery and Function 4
                                 operations. The scope of this review focused on whether
                                 area officials implemented SOP at the area level and
                                 excluded review at selected district and delivery and retail
                                 units within the area. We did not determine the
                                 effectiveness of the implemented SOP at this time, but plan
                                 to perform future reviews and identify opportunities to
                                 increase revenue, reduce costs, and improve customer
                                 service.

                                 We visited Postal Service Headquarters and the Western
                                 Area to interview management officials and obtain
                                 performance data. We selected the Western Area8 to
                                 review based on discussions with Postal Service
                                 Headquarters Delivery and Retail officials and review of
                                 FY 2006 delivery and retail performance data for week 10.9
                                 We reviewed and analyzed performance data obtained from
                                 Postal Service systems from October 2005 through
                                 June 2006 and discussed the results with Postal Service
                                 officials.10 We relied on data from these systems to conduct
                                 interviews and analysis. However, we did not directly audit
                                 the systems, but discussed with Postal Service officials the
8
  We performed an area level review in the Eastern, Pacific, Western, Northeast, and New York Metro Areas. We
performed work at the area and selected districts and delivery and retail units in the Capital Metro, Great Lakes,
Southeast, and Southwest Areas.
9
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.
10
   During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.



                                                        3
Delivery and Retail Standard Operating Procedures -                              DR-MA-06-003
 Western Area


                              relevance of the data to delivery and retail performance
                              during our fieldwork.

                              We conducted our review from January through
                              September 2006 in accordance with the President’s Council
                              on Integrity and Efficiency, Quality Standards for
                              Inspections. We discussed our observations and
                              conclusions with management officials and included their
                              comments where appropriate.

Prior Audit Coverage          The OIG has issued 12 audit reports related to delivery and
                              retail operations. While none of these reports are directly
                              related to our objective, they do identify opportunities to
                              improve delivery and retail operations. The details of the
                              reports are included in Appendix A of this report.




                                                      4
Delivery and Retail Standard Operating Procedures -                                                      DR-MA-06-003
 Western Area


                                            RESULTS
Implementation of                   Western Area officials implemented the SOP in city and rural
Standard Operating                  delivery and Function 4 operations which included:
Procedures
                                        •    Training supervisors and managers responsible for
                                             city and rural delivery and Function 4 operations to
                                             allow further implementation by the district and unit
                                             levels.11

                                        •    Developing approved action steps for units identified
                                             as “vital few.”

                                        •    Outlining future plans to complete reviews on the
                                             remaining AMSOP and RDSOP locations by
                                             September 30, 2006.

                                        •    Instituting a web-based tool, Customer Service
                                             Variance12 (CSV), as a substitute for Function 4
                                             Business Reviews.

                                    Western Area officials had certified 4 percent (14 of 287) of
                                    their level 22 and above DOIS sites under AMSOP.13
                                    During FY 2006, week 34 year-to-date, the city delivery
                                    office hours (percent to standard) exceeded standard
                                    workhours by 102.51 percent. This was a decrease in hours
                                    from week 19 year-to-date, when the office hours exceeded
                                    the standard hours by 102.76 percent. During this same
                                    period, the deliveries per hour percentage exceeded the
                                    same period last year percentage by 1.54 percent. This was
                                    an increase from week 19 year-to-date, when the deliveries
                                    per hour percentage exceeded the same period last year
                                    percentage by 1.56 percent.14



11
  In the Western Area, officials identify the SOP as Critical Standard Operating Instructions (CSOI). In
October 2005, the area conducted a CSOI “Train-the-Trainer” class to train district personnel who would later conduct
net meetings presenting an overview of the CSOI certification test and self-assessment online. As of April 2006,
personnel in seven of the 14 districts have passed the CSOI certification for city delivery, rural delivery, and Function
4 SOP.
12
   Western Area officials instituted a web-based tool, CSV, to monitor Function 4 operations and to
identify budget expectations. They developed and used the CSV system to provide data online for area
managers to conduct daily ongoing reviews of retail units’ performance instead of conducting costly on-
site reviews.
13
     Information as of April 2006.
14
     We are planning a future review on city carrier street management.



                                                           5
Delivery and Retail Standard Operating Procedures -                               DR-MA-06-003
 Western Area



                              During FY 2006, week 34 year-to-date, rural delivery total
                              actual workhours exceeded standard workhours by 4.50
                              percent. This was a decrease from week 19 year-to-date,
                              when the actual hours exceed the standard hours by 5.88
                              percent.

                              Postal Service Headquarters Delivery and Retail officials
                              approved the area’s use of the CSV instead of Function 4
                              Business Plans. Western Area officials used the CSV to
                              monitor Function 4 operations and to identify Function 4
                              budget expectations. In addition, during FY 2006, week
                              34 year-to-date, Function 4 total earned hour variance was
                              1.6 million workhours. This was an increase from week
                              19 year-to-date when the earned hour variance was 805,301
                              workhours. During the same period, the window staffing
                              efficiency for week 34 year-to-date was 75.7 percent. This
                              was a decrease from week 19 year-to-date when the
                              window staffing efficiency was 78.5 percent.

                              Based on our review of the city and rural delivery and
                              Function 4 operations, the Western Area implemented each
                              of the component’s SOP except for selected aspects of
                              AMSOP certifications and RDSOP certifications. (See
                              Appendix B.) Specifically, the area had only certified 4
                              percent of city delivery units. Area officials stated that
                              AMSOP certification review requirements were challenging
                              because the process was not conducive to all level 22 and
                              above delivery units. Management stated that delivery unit
                              organizational structures and staff experiences prevented
                              units from meeting all of the certification requirements. Area
                              officials indicated Postal Service Headquarters Delivery and
                              Retail officials could improve the AMSOP standards by
                              reassessing whether all requirements are critical to all level
                              22 and above delivery units. We recognize area officials’
                              concern, and we plan to address this issue in the capping
                              report to Postal Service Headquarters.

                              Further, area officials had not monitored the certification of
                              delivery units in RDSOP. Although area officials monitored
                              RDSOP reviews, area officials indicated they did not fully
                              understand the Postal Service Delivery and Retail directives
                              to monitor the units’ certification of RDSOP.




                                                      6
Delivery and Retail Standard Operating Procedures -                                 DR-MA-06-003
 Western Area



                              Area officials implemented corrective actions during our
                              review. Specifically, area officials requested each district to
                              develop a plan to complete the required AMSOP
                              certifications by the end of FY 2006. As the certifications
                              are completed, district officials plan to update the intranet
                              website. Area officials also plan to review the website on a
                              regular basis to monitor progress and perform random
                              AMSOP certification reviews in districts during FY 2006 as
                              units are certified. Additionally, officials began monitoring
                              the certification of RDSOP for “vital few” performers and
                              units with 10 or more rural routes.

                              Additionally, area officials were continuing to address
                              challenges associated with the “vital few” performers.
                              Western Area officials indicated that, although they were
                              implementing the SOP, “vital few” performers were not
                              performing to standards due to staff having limited
                              experience. We recognize area officials’ concern and plan
                              to address this issue in the capping report to postal
                              headquarters officials.




                                                      7
Delivery and Retail Standard Operating Procedures -                               DR-MA-06-003
 Western Area




Morning Standard              Western Area Officials were working with districts to certify
Operating                     delivery units under the required AMSOP. As of April 2006,
Procedures                    only 14 (4 percent) of the 287 level 22 and above units in
                              the Western Area were AMSOP certified. Area officials
                              stated AMSOP certification review requirements were
                              challenging because the process was not conducive to all
                              level 22 and above delivery units. Area officials also stated
                              that delivery unit organizational structures and staff
                              experiences prevented units from meeting all of the
                              certification requirements.

                              The Postal Service implemented AMSOP nationally during
                              FY 2005 for city delivery units. The national FY 2006
                              AMSOP goal is for all level 22 and above delivery units to
                              achieve certification in FY 2006. The primary intent of the
                              process is to standardize daily carrier office functions and
                              improve management of carrier morning office processes.
                              Effective implementation will reduce workhours, stabilize
                              carrier departure and return times, and enhance service to
                              our customers. In order to have an effective AMSOP
                              process, cross-functional support and agreements are
                              required.

                              Area officials indicated Postal Service Headquarters
                              Delivery and Retail officials could improve the AMSOP
                              standards by reassessing whether all requirements are
                              critical to all level 22 and above delivery units. We
                              recognize area officials’ concerns, and we plan to address
                              this issue in the capping report to Postal Service
                              Headquarters.

                              During our review, area officials requested each district to
                              develop a plan to complete the required AMSOP
                              certifications by the end of FY 2006. As the certifications
                              are completed, district officials plan to update the intranet
                              website. Area officials also plan to review the website on a
                              regular basis to monitor progress and perform random
                              AMSOP certification reviews in districts during FY 2006 as
                              units are certified. Since officials implemented corrective
                              action, we are not making any recommendations.




                                                      8
Delivery and Retail Standard Operating Procedures -                                  DR-MA-06-003
 Western Area




Rural Delivery                Area officials had not monitored the certification of delivery
Standard Operating            units in RDSOP. Although area officials monitored RDSOP
Procedures                    reviews, area officials indicated they did not fully understand
                              the Postal Service Delivery and Retail directives to monitor
                              the units’ certification of RDSOP. If units identified as “vital
                              few” and units with 10 or more rural routes are not certified,
                              the Postal Service may not achieve its goal of improving
                              efficiency in an evaluated workload environment and
                              alignment of actual to standard hours.

                              Postal Service Headquarters Delivery and Retail officials
                              established RDSOP reviews as a national requirement for
                              FY 2006 to help create a consistent understanding of the
                              requirements necessary for well-run, highly efficient rural
                              delivery operations. The reviews focus on improving
                              efficiency in an evaluated workload environment, which will
                              result in closer alignment of actual to standard hours,
                              reduced overtime, and a reduction in auxiliary assistance
                              hours. The RDSOP requires 75 percent of all units identified
                              as “vital few” and units with 10 or more rural routes to
                              achieve certification status, described as attaining an
                              “overall unit appraisal” score of 85% or greater, by
                              September 30, 2006. Units with less than 10 rural routes
                              and not part of “vital few” will complete self-reviews.

                              Area officials implemented corrective action during our
                              review. They solicited district officials to identify units that
                              have achieved RDSOP certifications. Area officials began
                              monitoring RDSOP certifications in the 3rd quarter of
                              FY 2006. Since officials implemented corrective action, we
                              are not making any recommendations.




                                                      9
Delivery and Retail Standard Operating Procedures -                                  DR-MA-06-003
 Western Area




“Vital Few” Lists             Area officials were continuing to address challenges
                              associated with the “vital few” units. Western Area officials
                              indicated that, although they were implementing the SOP,
                              “vital few” performers were not performing to standards due
                              to employees having:

                                  •    Limited knowledge in all three operations: city
                                       delivery, rural delivery, and Function 4 operations.

                                  •    Diminishing skills.

                              Prior to the SOP, there was more emphasis on technology
                              and less emphasis on developing skills in delivery and
                              Function 4 operations.

                              Area officials planned to continue emphasizing the SOP and
                              standardization with the “vital few,” which will make the
                              process easier for officials to identify work outside standard
                              time allowances. Area officials maintained SOP training
                              materials and certification on their intranet to give all
                              employees the access and the opportunities to enhance
                              their skills in city delivery, rural delivery, and Function 4
                              operations. We recognize area officials’ concern, and we
                              plan to address this issue in the capping report to Postal
                              Service Headquarters.




                                                      10
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-003
 Western Area


                                           APPENDIX A

                                 PRIOR AUDIT COVERAGE
City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR-
06-003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) base information to monitor city letter
carriers’ street time to correct negative trends, or properly document letter carriers’
unauthorized overtime occurrences and take corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation Audit
(Report Number FF-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP are applicable,
management had begun implementation. Of those, 11 had obtained certification and
17 were at various stages of certification. At the time of our work, eight units had not
begun implementation. Several factors contributed to units not being certified. These
factors included issues with the mail arrival agreement with the processing and
distribution plant, posting and following the AMSOP, and Function 4 activities. We
made no recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of Address Management System data and put $988,945 of
processing and delivery costs over the next 10 years to better use. Management
agreed with our findings and recommendations and the $988,945 in funds put to better
use.




                                                      11
Delivery and Retail Standard Operating Procedures -                             DR-MA-06-003
 Western Area


City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-
013, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the Santa Ana District. Delivery facility
supervisors and managers did not adequately match workhours with workload. We
projected the sample results for a total of 83,864 unjustified hours over the 5-month
period from May 1 through September 30, 2004, that were not supported by volume or
workload (total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05-
014, dated August 8, 2005). The report outlined opportunities to improve the
management of city letter carrier operations in the San Diego District. Delivery facility
supervisors and managers did not adequately match workhours with workload. We
projected the sample results for a total of 53,835 unjustified hours over the 5-month
period from May 1 through September 30, 2004, that were not supported by volume or
workload (total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,762 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations and
delivery unit supervisors and managers did not consistently perform street management



                                                      12
Delivery and Retail Standard Operating Procedures -                              DR-MA-06-003
 Western Area


or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 (customer service) process in meeting or exceeding its program goals
of monitoring and measuring the potential savings of customer service operations.
Specifically, Postal Service managers could improve customer service operations by
fully utilizing the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely impacted delivery supervisors and managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors/managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXX and XXXXXXXX Stations. Delivery unit supervisors monitored city delivery
carrier’s street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers’ morning time and exposed the Baltimore District to potential unnecessary
evening overtime costs. The report noted supervisors/managers were not using DOIS
to manage carrier schedules and, consequently, could not use the system to evaluate
carrier scheduling or take corrective action.




                                                      13
Delivery and Retail Standard Operating Procedures -                                           DR-MA-06-003
 Western Area


                                               APPENDIX B

                 WESTERN AREA IMPLEMENTATION OF
       DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                                        Western Area
                                          Officials
                          SOP           Implemented           Dates SOP      SOP Areas for
                                                                                         15
                          Areas          Procedures          Implemented     Improvement
                     City Delivery
                  AMSOP                     Yes                10/2005             No*
                  Integrated
                  Operations                Yes                10/2005             No
                  Delivery Point
                  Sequencing                Yes                10/2005             No
                  Collection Point
                  Management                Yes                10/2005             No
                  Scanning
                  Performance               Yes                10/2005             No
                  Matching
                  Workhours to
                  Workload                  Yes                10/2005             No
                  Volume Recording          Yes                10/2005             No
                  Route Evaluations
                  and Adjustments           Yes                10/2005             No
                  “Vital Few” Service
                  Improvements              Yes                10/2005             No
                    Rural Delivery
                  RDSOP                     Yes                1/2006              No*
                  Growth and
                  Delivery Point
                  Mgmt                      Yes                10/2005             No
                      Function 4
                  Function 4
                  Business Review16         Yes                10/2005             No
                  RDM WOS                   Yes                10/2005             No

                   * Corrective action was taken during the review.

                   Source: Information provided by Postal Service Western Area officials.




15
     OIG determination based on review results.
16
     The Western Area used CSV system instead of the Function 4 Business Review.



                                                        14
